No. 20-1562
IN THE

Supreme Court of the United States
_________

FAYE STRAIN, AS GUARDIAN OF THOMAS
BENJAMIN PRATT,
v.
VIC REGALADO, ET AL.

_________

Petitioner,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit

_________

BRIEF IN OPPOSITION

_________

SEAN P. SNIDER*
AUSTIN J. YOUNG**
JOHNSON HANAN VOSLER
HAWTHORNE & SNIDER
9801 N. Broadway Ext.
Oklahoma City, OK 73114
ssnider@johnsonhanan.com
(405) 232-6100
Counsel for Respondents Armor
Correctional Health Services, Inc.;
Curtis McElroy, D.O.; Patricia Deane,
LPN; and Kathy Loehr, LPC

*Counsel of Record
**Assisting on the Brief
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
QUESTION PRESENTED FOR REVIEW
Whether a claim by a pretrial detainee for deliberate
indifference to a medical need under the Fourteenth
Amendment to the United States Constitution and 42
U.S.C. § 1983 will continue to require the jail or
medical staff at a jail to act with a “deliberate” and an
“indifferent” state of mind, or whether, without any
change in the Constitution or Statute, a claim for
deliberate indifference under the Fourteenth
Amendment can be established by a less stringent
“objective unreasonableness” standard that does not
require any proof of a culpable state of mind.

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Armor Correctional Health Services, Inc.; Curtis
McElroy, D.O.; Patricia Deane, LPN; and Kathy
Loehr, LPC. Armor Correctional Health Services, Inc.
is not a publicly held corporation or other publiclyheld entity. It does have a parent corporation, Armor
Correctional Healthcare Holdings, LLC. No other
publicly held corporation owns 10% or more of its
stock. Fed. R. App. P. 26.1(g)

iii
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW ............. i
PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT...................................................... ii
CONSTITUTIONAL PROVISION AND
STATUTE INVOLVED ...................................... 1
STATEMENT OF THE CASE ................................ 2
SUMMARY OF THE ARGUMENT ...................... 11
REASONS TO DENY CERTIORARI ................... 12
I. THE KINGSLEY STANDARD IS
INAPPLICABLE TO DELIBERATE
INDIFFERENCE
CASES
INVOLVING MEDICAL NEEDS .............. 12
II. THE KINGSLEY HOLDING WAS
EXPRESSLY
LIMITED
TO
EXCESSIVE
FORCE
CLAIMS
BROUGHT
BY
PRETRIAL
DETAINEES
UNDER
THE
FOURTEENTH AMENDMENT ................ 17
III.EVEN IF THE OBJECTIVELY
UNREASONABLE
STANDARD
WERE APPLICABLE, DISMISSAL
OF THIS CASE WAS STILL THE
APPROPRIATE OUTCOME ...................... 23
CONCLUSION ...................................................... 27

iv
TABLE OF AUTHORITIES
Cases

Arlington Heights v. Metropolitan Housing Dev.
Corp., 429 U.S. 252, 97 S.Ct. 555, 50 L.Ed.2d 450
(1977) .................................................................. 4
Burke v. Regalado, 935 F.3d 960
(10th Cir. 2019) ................................................. 21
Castro v. City of Los Angeles, 833 F.3d 1060
(9th Cir. 2016) ........................................ 5, 11, 16
Christensen v. Burnham, 788 Fed. Appx. 597
(10th Cir. 2019) ................................................. 21
Cope v. Cogdill, 19-10798, 2021 WL 2767581, at *5
(5th Cir. July 2, 2021) ...................................... 19
Correctional Servs. Corp. v. Malesko, 534 U.S. 61,
122 S.Ct. 515, 151 L.Ed.2d 456 (2001) .............. 6
Cottrell v. Caldwell, 85 F.3d 1480
(11th Cir. 1996) ................................................ 3-4
County of Sacramento v. Lewis, 532 U.S. 833, 118
S.Ct. 1708, 140 L.Ed.2d 1043 (1998) ............. 4, 6
Crocker v. Glanz, 752 Fed. Appx. 564
(10th Cir. 2018) ................................................. 21
Daniels v. Williams, 474 U.S. 327 (1986) ................ 4
Danser v. Stansberry, 772 F.3d 340
(4th Cir.2014) ................................................... 5-6
Duff v. Potter, 665 Fed. Appx. 242
(4th Cir. 2016) ................................................... 19
Estelle v. Gamble, 429 U.S. 97, 97 S.Ct. 285, 50 L. Ed.
2d 251 (1976) ............................................ Passim
Farmer v. Brennan, 511 U.S. 825 (1994) ...... Passim
Grayson v. Peed, 195 F.3d 692 (4th Cir. 1999) ....... 6
Green v. Branson, 108 F.3d 1296
(10th Cir. 1997) ................................................... 5

v

Gregg v. Georgia, 428 U.S. 153, 96 S.Ct. 2909, 49
L.Ed.2d 859 (1976) ............................................. 3
Griffith v. Franklin County, 975 F.3d 554
(6th Cir. 2020) ................................................... 19
Hare v. City of Corinth, 74 F.3d 633
(5th Cir. 1996) ..................................................... 3
Kingsley v. Hendrickson, 576 U.S. 389, 135 S.Ct.
2466 (2015)................................................ Passim
Martin v. Creek County Jail, 2010 WL 4683852
3 (N.D. Okla. 2010) ........................................... 11
Mata v. Saiz, 427 F.3d 745 (10th Cir. 2005) ....... 3, 5
Moore v. Luffey, 767 Fed. Appx. 335
(3d Cir. 2019) ............................................... 18-19
Miller v. Neathery, 52 F.3d 634 (7th Cir. 1995) ..... 3
Miranda-Rivera v. Toledo-Davila, 813 F.3d 64
(1st Cir. 2016) ................................................... 18
Nam Dang v. Sheriff Seminole County Florida,
871 F.3d 1272 (11th Cir. 2017) ........................ 19
R.A.V. v. City of St. Paul, Minn., 505 U.S. 377
(1992) ................................................................... 21
Self v. Crum, 439 F.3d 1227 (10th Cir. 2006) ......... 2
Shover v. Chestnut, 798 Fed. Appx. 760
(4th Cir. 2020) ................................................... 19
Smart v. Villar, 547 F.2d 112 (10th Cir. 1976) ....... 5
Whitney v. City of St. Louis, 887 F.3d 857
(8th Cir. 2018) ................................................... 19
Wise v. Bravo, 666 F.3d 1328 (10th Cir. 1981) ..... 11
Constitutional Provisions and Statutes

U.S. Const. amend. XIV, § 1 ......................... Passim
42 U.S.C. § 1983 ...................................1, 4, 5, 11, 15

1
CONSTITUTIONAL PROVISION AND
STATUTE INVOLVED
Pursuant to the Fourteenth Amendment to the
United States Constitution: “[n]o State…shall
deprive any person of life, liberty, or property without
due process of law; nor deny any person within its
jurisdiction the equal protection of the laws.” U.S.
Const. amend. XIV, § 1.
Section 1983, codified as 42 U.S.C. § 1983, provides,
in pertinent part:
Every person who, under color of any
statute, ordinance, regulation, custom,
or usage, of any State or Territory or
the District of Columbia, subjects, or
causes to be subjected, any citizen of
the United States or other person
within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities
secured
by
the
Constitution and laws, shall be liable to
the party injured in an action at law,
suit in equity, or other proper
proceeding for redress…
42 U.S.C. § 1983.

2
STATEMENT OF THE CASE
Legal Framework
The Tenth Circuit correctly held that claims of
deliberate indifference concerning medical treatment
of pretrial detainees require more than a
disagreement in treatment or negligence. As a result,
those claims require a plaintiff to sufficiently allege
the subjective and objective components:
The Fourteenth Amendment prohibits
deliberate indifference to a pretrial
detainee’s serious medical needs.
Disagreement
about
course
of
treatment or mere negligence in
administering treatment do not
amount to a constitutional violation.
Rather, to state a claim for deliberate
indifference, a plaintiff must allege
that an official acted (or failed to act) in
an objectively unreasonable manner
and with subjective awareness of the
risk. Indeed, the word deliberate
makes a subjective component inherent
in the claim.
Pet. App. at 4a.
The deliberate indifference standard has long
required claimants prove both an objective and a
subjective component. Estelle v. Gamble, 429 U.S. 97,
104-06 (1976); Farmer v. Brennan, 511 U.S. 825, 835
(1994). To establish the objective component, “the
alleged deprivation must be ‘sufficiently serious’ to
constitute a deprivation of constitutional dimension.”
Self v. Crum, 439 F.3d 1227, 1230 (10th Cir. 2006)
(quoting Farmer v. Brennan, 511 U.S. 825, 834, 114
S.Ct. 1970, 128 L.Ed.2d 811 (1994)). Further, a

3
correctional facility official “must both be aware of
facts from which the inference could be drawn that a
substantial risk of serious harm exists, and he must
also draw the inference.” Farmer, 511 U.S. at 837.
The subjective component requires a plaintiff to
establish that a medical “official knows of and
disregards an excessive risk to inmate health or
safety; the official must both be aware of facts from
which the inference could be drawn that a substantial
risk of serious harm exists, and [s]he must also draw
the inference.” Mata v. Saiz, 427 F.3d 745, 751 (10th
Cir. 2005) (alteration in original) (quoting Farmer,
511 U.S. at 837). “[D]eliberate indifference to serious
medical needs of prisoners constitutes the
‘unnecessary and wanton infliction of pain.’” Estelle,
429 U.S. 97, 104, 97 S.Ct. 285, 291, 50 L.Ed.2d 251
(1976) (citing Gregg v. Georgia, 428 U.S. 153, 173, 96
S.Ct. 2909, 2925, 49 L.Ed.2d 859 (1976) (joint opinion
of Stewart, Powell, and Stevens, JJ.)).
A claim of deliberate indifference entails something
more than unreasonableness or negligence. This
Court and appellate courts have long held that
“prison officials may not be held liable if they prove
they were unaware of the risk, or if they responded
reasonably to a known risk – even if the harm
ultimately was not averted.” Farmer, 511 U.S. 826;
see also Miller v. Neathery, 52 F.3d 634 (7th Cir.
1995) (discarding the civil test for negligence in favor
of the criminal recklessness standard for
constitutional deliberate indifference cases); Hare v.
City of Corinth, 74 F.3d 633 (5th Cir. 1996)
(mandating the prisoner prove the official both knew
of and disregarded “an excessive risk to inmate health
or safety”); Cottrell v. Caldwell, 85 F.3d 1480 (11th
Cir. 1996) (holding that Farmer requires “a great deal

4
more of the plaintiff than a showing that the
defendants violated generally accepted customs and
practices.”). Differences in judgment between pretrial
detainees and jail medical personnel regarding
appropriate medical diagnoses or treatment are not
sufficient to sustain a deliberate indifference claim.
“[I]n the medical context, an inadvertent failure to
provide adequate medical care cannot be said to
constitute ‘an unnecessary and wanton infliction of
pain’ or to be ‘repugnant to the conscience of
mankind.’” Estelle, 429 U.S. at 105-06.
This Court has specifically stated, that “liability
for negligently inflicted harm is categorically beneath
the threshold of constitutional due process.” Kingsley
v. Hendrickson, 576 U.S. 389, 396, 135 S.Ct. 2466,
2472, 192 L.Ed.2d 416 (2015) (citing County of
Sacramento v. Lewis, 523 U.S. 833, 849, 118 S.Ct.
1708, 140 L.Ed.2d 1043 (1998)). When bringing a suit
under Section 1983, a plaintiff must still prove a
violation of the underlying constitutional right and,
depending on the right, merely negligent conduct may
not be enough to state a claim. See Daniels v.
Williams, 474 U.S. 327 (1986); see also, e.g., Arlington
Heights v. Metropolitan Housing Dev. Corp., 429 U.S.
252, 97 S.Ct. 555, 50 L.Ed.2d 450 (1977); Estelle, 429
U.S. 97 (1976). The subjective requirement
establishes the state of mind/mens rea requirement
that necessarily separates constitutional claims
brought pursuant to 42 U.S.C. § 1983 from claims of
professional negligence. Justice Scalia warned
against conflating negligence with constitutional
claims when dissenting in Kingsley, 576 U.S. 389,
408, 135 S.Ct. 2466, 2479 (2015) (“The Due Process
Clause is not ‘a font of tort law to be superimposed
upon’ [a state’s statutory and common law] system.

5
Today’s majority overlooks this in its tender-hearted
desire to tortify the Fourteenth Amendment.”)
(Scalia, J., dissenting) (internal citations omitted); see
also Castro v. Cty. of Los Angeles, 833 F.3d 1060 (9th
Cir. 2016), (Ikuta, J. dissenting) (“[T]he majority has
simply dressed up the Farmer test in Kingsley
language for no apparent reason; it conflates the two
standards only to end up where we started.”).
The Tenth Circuit has properly and consistently
followed this Court’s guideposts on the issue in
holding that negligence alone does not state a
constitutional claim under 42 U.S.C. § 1983 for
deliberate indifference to medical needs. See Green v.
Branson, 108 F.3d 1296, 1303 (10th Cir. 1997).
“Where the necessity for treatment would not be
obvious to a lay person, the medical judgment of the
physician, even if grossly negligent, is not subject to
second-guessing in the guise of an Eighth
Amendment claim.” Mata, 427 F.3d at 751 (citing
Green, 108 F.3d at 1303. If medical care was provided,
and there is only a disagreement as to whether the
proper care was provided, the case sounds in tort and
does not rise to the level of a civil rights claim. Smart
v. Villar, 547 F.2d 112 (10th Cir. 1976).
Additionally, the burden that a plaintiff must
demonstrate when claiming deliberate indifference
“is a very high standard,” Grayson v. Peed, 195 F.3d
692, 695 (4th Cir. 1999), which “make[s] it
considerably more difficult for [an inmate] to prevail
than on a theory of ordinary negligence,” Correctional
Servs. Corp. v. Malesko, 534 U.S. 61, 73, 122 S.Ct.
515, 151 L.Ed.2d 456 (2001). It is a subjective
standard that requires an inmate to prove “that the
prison official had actual knowledge of an excessive

6
risk to [his] safety.” Danser v. Stansberry, 772 F.3d
340, 347 (4th Cir. 2014).
In this case, Petitioner failed to plead facts sufficient
in her Complaint to meet this high standard. Instead,
Petitioner’s claims amount to nothing more than a
disagreement over the adequacy of the treatment
provided, which this Court, and others, has
determined is not enough to assert an actionable
claim of a violation of a pretrial detainee’s rights
under the Fourteenth Amendment. To this end, if the
subjective prong is removed from a claim for
deliberate indifference, all that would remain would
be a purely objective unreasonableness standard.
This would result in constitutional claims being
analyzed under the same standard as ordinary
medical negligence claims. Consequently, the use of a
purely objective standard would essentially create a
constitutional cause of action for medical negligence.
As Kingsley advised, “liability for negligently inflicted
harm is categorically beneath the threshold of
constitutional due process.” Kingsley, 576 U.S. at 396
(quoting County of Sacramento, 523 U.S. at 849).
Thus, the use of an objective unreasonableness
standard is inappropriate for the evaluation of
constitutional claims of deliberate indifference for
medical needs.
In medicine a decision to not provide a specific
treatment or medication is often the most appropriate
course of treatment, and therefore the best form of
medical treatment a patient can receive for a
particular ailment. The inverse, which is suggested by
Petitioner (that a medical provider’s intentional
decision to not provide a specific course of treatment
is sufficient to satisfy the subjective component of a
deliberate indifference claim), would result in medical

7
providers unnecessarily medicating and treating
patients just for the sake of taking affirmative action.
If Petitioner were to succeed in her quest to change
the standard by which deliberate indifference claims
are analyzed, the consequence would be a system of
judicially imposed and often medically unnecessary
and harmful patient care wherein medical providers
are stripped of their autonomous ability to treat
patients according to their best judgment. In
considering the best course of treatment for their
patients, medical providers are constantly balancing
the potential harms with the potential benefits of a
course of action or treatment, and they must remain
free to do so without being pressured into
unnecessary action, solely for the sake of action, to
avoid liability.
Here, Petitioner did not, and cannot, allege that
medical care was not provided to Thomas Pratt
(hereinafter “Pratt”). Instead, she merely disagrees
with the adequacy of the medical care that was
allegedly provided. Analysis under both a subjective
and objective standard was appropriate for the
District Court and the Tenth Circuit, and both courts
appropriately found the Petitioner failed to allege
facts sufficient to state a claim against the
Respondents based on the Fourteenth Amendment.
Accordingly, this Court should deny Petitioner’s
Petition for a Writ of Certiorari and thereby allow the
proper legal standard for deliberate indifference to
remain as it is, and has been for decades, in the Tenth
Circuit. To the extent that other circuits are now
applying a new, less stringent standard for deliberate
indifference cases, this Court should consider righting
those wrongs when the opportunity arises in a
properly appealed decision from one of those circuits.

8
This case was properly analyzed and decided by the
lower courts, and those decisions should be allowed to
stand.
Factual Background
The factual allegations in the Complaint concerning
the medical care of Pratt by employees of Armor
Correctional Health Services, Inc. (hereinafter
“Armor”), including individual Respondents, Deane,
McElroy, and Loehr as considered by the lower courts,
fail to rise to the level required to establish a violation
of Pratt’s Fourteenth Amendment rights. The
Complaint alleges Pratt was booked into the jail on
December 11, 2015, and on December 12, 2015, Pratt
submitted two medical sick call requests wherein he
allegedly complained of alcohol withdrawal and
requested detoxification medications. Pet. App. 51a,
¶¶ 14-16. At approximately 1:05 p.m. the same day,
according to the face of the Complaint, an Armor
nurse conducted a drug and alcohol withdrawal
assessment on Pratt. Id. at 51a-52a, ¶ 17. Within the
following hour, Armor’s providers admitted Pratt to
the jail’s medical unit for closer observation, and upon
such admission, a nurse performed a mental health
assessment of Pratt and took his blood pressure. Id.
at 52a, ¶ 18. Notably, Pratt’s diagnosis upon
admission to the medical unit was “Detox.” Id.
Armor’s providers placed Pratt on seizure precautions
on December 13, 2015. Id. at ¶ 19.
Petitioner’s allegations further show Armor’s
providers placed Pratt on Librium protocol for alcohol
withdrawal in response to his complaints. Id. at 55a,
¶ 26. Librium is a sedative medication frequently
used to treat alcohol withdrawal. The Complaint does
not allege the exact day on which this protocol was
initiated; however, it is clear Pratt was placed on said

9
protocol prior to the early morning hours of December
14, 2015. See id. Petitioner does not allege any
Respondent failed to administer Librium to Pratt, nor
does Petitioner claim Pratt did not receive such
treatment. Further, Petitioner alleges Nurse Deane
performed a drug and alcohol assessment on Pratt at
approximately 2:08 a.m. on December 14, 2015, and
this assessment indicated a worsening in Pratt’s
withdrawal symptoms. Id. at 52a-53a, ¶ 20. Shortly
thereafter, Pratt’s treatment protocol was changed
from Librium to Valium—evidencing a shift in
treatment to better serve Pratt’s medical needs as
Valium is a stronger medication. Id. at 55a ¶ 26.
Petitioner does not allege any Respondents failed to
administer Valium to Pratt, nor does Petitioner claim
Pratt did not receive such treatment. On the contrary,
Petitioner alleges Pratt began receiving Valium the
morning of December 14, 2015, in response to Pratt’s
medical complaints. Id. at 55a, ¶ 26.
The Complaint further alleges Dr. McElroy assessed
Pratt on December 14, 2015, shortly after Pratt’s shift
from the Librium protocol to the Valium protocol, at
which time Dr. McElroy observed a small cut on
Pratt’s forehead. Id. No person witnessed the cause or
origin of the cut. Id. at 55a-56a, ¶ 26. During the
afternoon of December 14, 2015, another nurse
assessed Pratt, observing symptoms like those
previously diagnosed as alcohol withdrawal. Id. at
57a, ¶ 28. Pratt’s medical care continued through the
morning of December 15, 2015, at which time,
according to the Complaint, LPC Loehr, a Licensed
Professional
Counselor
and
mental
health
professional, assessed Pratt; determined he was
experiencing alcohol withdrawal; confirmed such
withdrawal and associated symptoms were being

10
treated with Valium (and therefore no additional
treatment by LPC Loehr was needed at that time);
observed the cut on Pratt’s forehead; and determined
the cut was likely unintentional as opposed to selfinflicted. Id. at 57a-58a, ¶ 30. Dr. McElroy again
assessed Pratt the afternoon of December 15, 2015.
Id. at 59a, ¶ 32.
Petitioner alleges at approximately midnight on
December 16, 2015, a nurse observed Pratt, who
would not get up (i.e., Pratt was sleeping), and the
nurse did not disturb Pratt to obtain his vital signs.
Id. at ¶ 33. Approximately one hour later, a detention
officer found Pratt unresponsive. Id. at ¶ 34. Upon
discovering Pratt was unresponsive, Armor providers
immediately began resuscitative efforts, called
emergency responders, and successfully resuscitated
Pratt. Id. Petitioner’s allegations, even if taken as
true, show Armor’s providers recognized Pratt was
undergoing alcohol withdrawal and took affirmative
steps to treat Pratt’s withdrawal. These are the facts
as alleged by Petitioner and taken as true by the
district and appellate courts below. Pet. App. at 32a35a, 51a-59a.
In its Opinion, the Tenth Circuit distinguished the
subjective standards for an excessive force claim from
a medical needs claim under the Fourteenth
Amendment and correctly decided that Petitioner’s
factual claims in her Complaint fail to rise to the level
of a constitutional violation, “[b]ecause the two
categories of claims protect different rights for
different purposes, the claims require different stateof-mind inquiries. . . . Although [Petitioner’s] claims
may smack of negligence, we conclude that they fail
to rise to the high level of deliberate indifference
against any Defendant.” Pet. App. at 13a, 25a.

11
SUMMARY OF THE ARGUMENT
This is a factually unremarkable case that raises a
narrow issue that does not require intervention by
this Court. Deliberate indifference, as a constitutional
claim under Section 1983, requires an individual to
allege intentional conduct that is “so egregious as to
subject the aggrieved individual to a deprivation of
constitutional dimensions.” Martin v. Creek County
Jail, 2010 WL 4683852, 3 (N.D. Okla. 2010) (quoting
Wise v. Bravo, 666 F.3d 1328, 1333 (10th Cir. 1981).
Moreover, this Court’s ruling in Kingsley considered
only excessive force claims, not those of deliberate
indifference towards pretrial detainees. Kingsley v.
Hendrickson, 576 U.S. 389 (2015). The two situations
could not be more opposite: “Excessive force requires
an affirmative act, while deliberate indifference often
stems from inaction.” Castro v. City of Los Angeles,
833 F.3d 1060, 1069 (9th Cir. 2016) (en banc).
Accordingly, to assess both excessive force and
deliberate indifference by the same standard is
inappropriate.
Petitioner urges this Court to abandon and overrule
decades of extensive precedent and align itself with a
minority of circuits that have extended the markedly
limited holding pronounced by Kingsley to claims of
deliberate indifference to serious medical needs
brought under the Fourteenth Amendment. Adoption
of the standard urged by Petitioner would represent a
watershed moment in pretrial detainee Fourteenth
Amendment deliberate indifference claims for
medical needs and upend the standard set forth by
the majority of circuit courts that have limited
Kingsley to its narrow holding.

12
Finally, even if the objective unreasonableness
standard espoused in Kingsley for excessive force
claims were to be applied to the facts as alleged on the
face of Petitioner’s Complaint in this case, the
outcome would be identical. Therefore, this Court
should deny Petitioner’s Petition for a Writ for
Certiorari.
REASONS TO DENY CERTIORARI
I.

THE KINGSLEY STANDARD IS
INAPPLICABLE TO DELIBERATE
INDIFFERENCE CASES INVOLVING
MEDICAL NEEDS

The plaintiff in Kingsley was a pretrial detainee
who refused to comply with law enforcement officers’
orders to remove a piece of paper from a light fixture.
Kingsley, 576 U.S. at 392. In response, the officers
handcuffed the detainee; moved the detainee to a
different cell; and placed the detainee face-down on a
bed with his hands handcuffed behind him. Id. An
officer then placed a knee in the detainee’s back;
allegedly slammed the detainee’s head against a
concrete bunk; and ultimately stunned the detainee
with a Taser for approximately five seconds. Id. at
392-3. Each of these alleged actions were deliberate,
intentional, and purposeful; as alleged, these acts
were not accidental or unknowing failures to act. On
appeal, this Court in Kingsley considered a patently
narrow issue: “whether, to prove an excessive force
claim, a pretrial detainee must show that the officers
were subjectively aware that their use of force was
unreasonable, or only that the officers’ use of force

13
was objectively unreasonable.” Id. (emphasis in
original).
Underlying the Kingsley Court’s ruling and analysis
were the specific considerations dictated by the
unique nature of excessive force claims as compared
to other claims under the Fourteenth Amendment.
Such claims indisputably involve overt actions by
officers, such as “the swing of a fist that hits a face, a
push that leads to a fall, or the shot of a Taser that
leads to the stunning of its recipient.” Id. at 2472. By
their very nature, such actions demonstrate
“intentional and knowing act[s].” Id. at 2474. These
actions are not accidental but rather intentional,
purposeful, or made with a reckless state of mind. Id.
Therefore, excessive force claims require an
affirmative, intentional, purposeful or reckless act by
a law enforcement officer – i.e., the decision and act
to apply force intentionally to a detainee. The swing
of a fist, a push that leads to a fall, and the shot of a
Taser are intentional, affirmative actions committed
by an officer who knowingly makes an affirmative act.
Such affirmative acts are not present in a medical
provider’s alleged failure to act or provide additional
care and treatment. Therefore, in all cases of
excessive force, an intentional element inherently
exists which is often absent from medical needs cases.
Like Kingsley, intent of the conduct is the focus of
the Tenth Circuit’s analysis in Strain:
[A] deliberate indifference claim
presupposes a subjective component.
After all, deliberate means intentional,
premeditated, or fully considered. And
as an adjective, deliberate modifies the
noun indifference. (An adjective that
modifies a noun element usually

14
precedes it.). So a plaintiff must allege
that an actor possessed the requisite
intent, together with objectively
indifferent conduct, to state a claim for
deliberate indifference.
***
Removing the subjective component
from deliberate indifference claims
would
thus
erode
the
intent
requirement inherent in the claim.
Pet. App. at 15a-16a (internal quotation marks and
citation omitted) (emphasis in original)
In this case, Petitioner failed to allege subjective
knowledge and disregard to a known and serious risk
of harm on the part of any Respondent in her
Complaint or any appellate brief filed in the Tenth
Circuit. Pet. App. 45a-77a. Now, for the first time in
this case, Respondent attempts to sidestep the Tenth
Circuit’s well-reasoned holding by arguing that an
unstated subjective component was actually pleaded
in her Complaint through the guise of Prattt’s medical
providers’ “intentional decisions” not to act. In her
Petition for a Writ of Certiorari, the Petitioner claims
the “Respondents made an intentional decision not to
send Pratt to a hospital and not to provide additional
care.” Pet’r’s Pet. at 20. By her reasoning, regardless
of all the care and treatment that was provided to care
for a pretrial detainee’s medical needs, a
constitutional deprivation may be properly pleaded
whenever there is any additional treatment that
could possibly be – but was not – provided. Likewise,
when no action is taken because the medical provider
is completely unaware of an underlying problem or
the severity of the underlying problem, according to
the Petitioner’s reasoning, there would be a valid

15
claim of deliberate indifference. This argument is
neither practical nor consistent with the purpose and
protections provided by the Fourteenth Amendment
and 42 U.S.C. § 1983. Petitioner has merely
substituted “intentional decision” for subjective
knowledge in an attempt to create a new legal
standard. Of course, the truth of the matter is that
Petitioner ultimately just disagrees with the care that
was provided to Pratt, which at most amounts to
negligence but fails to rise to the level of a violation of
Pratt’s Fourteenth Amendment rights. If this Court
were to remove the subjective component to a medical
needs case under the Fourteenth Amendment, the
logical outcome would be the courts forcing health
care providers in jail settings to unnecessarily
medicate, operate, or perform all available medical
and nursing interventions to avoid the possibility of
liability even when the most appropriate and
beneficial course of action for the patient would be no
action at all. Petitioner’s argument ignores that no
action can be a form of treatment.
Additionally, Petitioner’s proposed “intentional
decision” rubric fails on a basic level when considering
this Court’s analysis in Kingsley. Petitioner cites to
the examples stated in Kingsley involving an
accidental Taser discharge and an unintentional trip
and fall. Pet’r’s Pet. at 16. However, these examples
include intentional decisions with unintended
outcomes: an officer must choose to reach for his Taser
before accidentally setting if off, and an officer must
choose to take a step before accidentally falling on a
detainee. The subjective state of mind must remain
the critical part of the analysis. With the Court’s
examples in Kingsley, these would be the intent to use
force. In this case, or any medical needs case involving

16
deliberate indifference, a state of mind decision not to
act with the intent or knowledge that the alleged
inaction puts the patient at serious risk of harm is
required. In this case, Petitioner’s Complaint alleges
no such state of mind basis for the alleged failure to
provide more or different treatment than Pratt was
allegedly provided for his known ailments. It is
unreasonable and unfounded to suggest that the
Respondents had a duty to utilize every known course
of treatment available to them – regardless of
potential utility. As predicted by Judge Ikuta in
Castro, Petitioner seeks to dress up the Farmer test
with the Kingsley language, only to create the same
standard and analysis.
Kingsley solely addressed excessive force claims by
pretrial detainees, which are separate and distinct
from claims of deliberate indifference to serious
medical needs. As such, this Court should not follow
the minority of Circuits that have expanded the
limited Kingsley holding beyond the confined analysis
upon which it rests. Instead, this Court should deny
the Petitioner’s Petition for a Writ of Certiorari and
allow the two-prong analysis established in Estelle
and Farmer, which has been utilized consistently and
extensively by the Tenth Circuit, to remain.
Elimination of the subjective prong of the analysis
would tortify the Fourteenth Amendment in the
context of deliberate indifference claims for medical
needs; impermissibly lower the constitutional
deliberate indifference standard to one akin to mere
negligence; and, as a result, undoubtedly open the
floodgates of litigation. Accordingly, this Court should
not grant the Petitioner’s Petition for a Writ of
Certiorari.

17
II.

THE KINGSLEY HOLDING WAS
EXPRESSLY LIMITED TO EXCESSIVE
FORCE CLAIMS BROUGHT BY PRETRIAL
DETAINEES UNDER THE FOURTEENTH
AMENDMENT

In 1994, this Court defined for the first time the
subjective component applicable to deliberate
indifference claims against law enforcement officers.
Farmer, 511 U.S. at 835-37. In doing so, the Court
rejected the petitioner’s request that the Court adopt
a purely objective standard and, instead, held that
liability of a prison official under the Eighth
Amendment can only occur when the official “knows
of and disregards an excessive risk to inmate health
or safety; the official must both be aware of facts from
which the inference could be drawn that a substantial
risk of serious harm exists, and he must also draw the
inference.” Id. at 837. Awareness of the risk and the
drawing of the requisite inference that a substantial
risk of serious harm exists are grounded in the state
of mind of the person acting or failing to act. Since this
holding, the Tenth Circuit has applied this analysis to
claims of deliberate indifference to medical needs
brought under the Eighth Amendment as those
brought under the Fourteenth Amendment.
Simply because a minority of circuit courts have
stepped beyond this Court’s application of Kingsley by
applying it to non-excessive force claims, does not
warrant this Court’s intervention in this case. Such
intervention could be appropriate in a case that
originates from a circuit that has applied Kingsley
beyond its limited holding. Additionally, the Tenth
Circuit applied a “properly stated rule of law”
consistent with its own jurisprudence, and that of this

18
Court, in declining to expand Kingsley to medical
needs cases, which weighs against a grant of review:
The Fourteenth Amendment prohibits
deliberate indifference to a pretrial
detainee’s serious medical needs.
Disagreement
about
course
of
treatment or mere negligence in
administering treatment do not
amount to a constitutional violation.
Rather, to state a claim for deliberate
indifference, a plaintiff must allege
that an official acted (or failed to act) in
an objectively unreasonable manner
and with subjective awareness of the
risk. Indeed, the word deliberate
makes a subjective component inherent
in the claim.
Pet. App. at 4a.
As recited by the Petitioner, the Second, Seventh,
and Ninth Circuits have opted to change the wellsettled standards for establishing deliberate
indifference claims by expanding Kingsley’s limited
holding. Pet’r’s Pet. at 8. However, the First, Fourth,
Fifth, Sixth, Eighth, Tenth, and Eleventh Circuits
have either squarely rejected requests to expand the
Kingsley holding to deliberate indifference claims or
the have continued to apply the traditional standard
to deliberate indifference claims following this Court’s
ruling in Kingsley. See Miranda-Rivera v. ToledoDavila, 813 F.3d 64 (1st Cir. 2016) (acknowledging
that Kingsley changed the standard for excessive
force
claims
and
applying
an
objective
unreasonableness standard to the plaintiffs’ excessive
force claim but not his deliberate indifference claim);
Moore v. Luffey, 767 Fed. Appx. 335, 340 (3d Cir.

19
2019) (acknowledging that plaintiff raised a Kingsley
argument and declining to address it, holding that the
outcome would be identical under the traditional
deliberate indifference standard or the objective
unreasonableness standard); Duff v. Potter, 665 Fed.
Appx. 242, 244-45 (4th Cir. 2016); (applying Kingsley
to pretrial detainee’s excessive force claim while
declining to apply Kingsley to pretrial detainee’s
medical needs claim); Shover v. Chestnut, 798 Fed.
Appx. 760 (4th Cir. 2020) (applying the deliberate
indifference standard to a pretrial detainee’s medical
claim without discussing Kingsley); Cope v. Cogdill,
19-10798, 2021 WL 2767581, at *5 (5th Cir. July 2,
2021) (finding that the Supreme Court held that
plaintiffs alleging excessive force must show that the
force
was
objectively
excessive,
and
because Kingsley discussed a different type of
constitutional claim, it did not abrogate the
deliberate-indifference precedent to non-use-of-force
claims); Griffith v. Franklin County, 975 F.3d 554
(6th Cir. 2020) (noting that post-Kingsley they have
found it unnecessary to answer the question each
time the issue has been confronted, holding the same
result would obtain under either test); Whitney v.
City of St. Louis, 887 F.3d 857, 860 n.4 (8th Cir. 2018)
(denying application of Kingsley to a deliberate
indifference claim involving alleged failure to monitor
and provide medical care to a pretrial detainee
stating, “Kingsley does not control because it was an
excessive force case, not a deliberate indifference
case.”); Nam Dang v. Sheriff Seminole County
Florida, 871 F.3d 1272 (11th Cir. 2017) (refusing to
apply Kingsley in the context of a deliberate
indifference claim because Kingsley involved an
excessive force claim and therefore was not “squarely

20
on point” or in conflict with Eleventh Circuit
precedent defining the proper standard for claims of
deliberate indifference to a serious medical need).
At no point did this Court direct the application of
its objective unreasonableness standard to nonexcessive force claims under the Fourteenth
Amendment. See Kingsley, 576 U.S. 389. In fact, this
Court has expressly placed, and with good reason,
claims of excessive force in a category separate and
distinct from claims of deliberate indifference:
[A]pplication
of
the
deliberate
indifference standard is inappropriate’
in one class of prison cases: when
‘officials stand accused of using
excessive physical force.’ In such
situations, where the decisions of
prison officials are typically made ‘in
haste, under pressure, and frequently
without the luxury of a second chance,’
an Eighth Amendment claimant must
show
more
than
‘indifference,’
deliberate or otherwise.
Farmer, 511 U.S. at 835 (internal citations omitted).
In Strain, the Tenth Circuit addressed Kingsley
“head on,” and remained consistent with its own
jurisprudence, and that of this Court, in declining to
expand it to deliberate indifference to medical needs
cases by stating:
Kingsley involved an excessive force
claim, not a deliberate indifference
claim. By its own words, the Supreme
Court decided that an objective
standard is appropriate in the context
of excessive force claims brought by
pretrial detainees pursuant to the

21
Fourteenth
Amendment—nothing
more, nothing less.
Pet. App. at 12a (internal citations and quotations
omitted).
In short, the Tenth Circuit correctly recognized that
Kingsley’s application is not “readily apparent”
outside of the context of excessive force. Id.
Since Kingsley, the Tenth Circuit, has had occasion
to decide cases other than this one involving pretrial
detainees’ claims of deliberate indifference to a
serious medical need and has consistently opted to
follow this Court’s holding in Kingsley. See
Christensen v. Burnham, 788 Fed. Appx. 597, 602
(10th Cir. 2019) (reiterating that the Tenth Circuit
“conduct[s] a two-pronged inquiry, composed of an
objective and subjective component” to claims of
deliberate indifferent to a serious medical need);
Burke v. Regalado, 935 F.3d 960 (10th Cir. 2019)
(applying both an objective and subjective standard
when determining whether prison officials and jail
medical providers violated a pretrial detainee’s
constitutional rights); Crocker v. Glanz, 752 Fed.
Appx. 564, 569 (10th Cir. 2018) (finding that a failure
to provide adequate medical care fails to state a
constitutional claim where there is no intentional
action).
This Court has urged caution when applying its new
decisions, noting, “[i]t is of course contrary to all
traditions of our jurisprudence to consider the law on
this point conclusively resolved by broad language in
cases where the issue was not presented or even
envisioned.” R.A.V. v. City of St. Paul, Minn., 505 U.S.
377, n.5 (1992) (emphasis added). In Kingsley, this
Court made clear that it was only addressing
excessive force claims:

22
We acknowledge that our view that an
objective standard is appropriate in the
context of excessive force claims
brought by pretrial detainees pursuant
to the Fourteenth Amendment may
raise questions about the use of a
subjective standard in the context of
excessive force claims brought by
convicted prisoners. We are not
confronted with such a claim, however,
so we need not address that issue
today.
576 U.S. at 402.
Despite this cautionary instruction, a small
minority of circuit courts have changed the standards
in their circuits to apply Kingsley’s holding beyond
the excessive force claims brought under the
Fourteenth Amendment. The First, Fourth, Fifth,
Sixth, Eighth, Tenth, and Eleventh Circuits have
remained consistent in their application of the correct
and well-settled standard for deliberate indifference
cases.
Petitioner claims that a circuit court split exists that
has created arbitrary distinctions that produces
circumstances of unequal treatment of pretrial
detainees based solely on geography. Res. App. at 24.
However, to the extent that any geographic disparity
exits, it is the result of a minority of circuits courts
that, without direction or order from this Court, and
in defiance of this Court’s explicit proclamation that
Kingsley only addressed excessive force claims,
expanded this Court’s narrow ruling in Kingsley and
ultimately changed the state of the law in their
circuits. If, as the Petitioner claims, a geographic
disparity exists, it only exists in the minority of

23
circuits that, unlike the Tenth Circuit, have failed to
follow this Court’s instructions and holding in
Kingsley. The Tenth Circuit has been consistent in its
deliberate indifference jurisprudence for decades, and
it appropriately applied that law in its Opinion in this
case.
That a small minority of circuit courts have applied
Kingsley beyond the issues presented should not
compel this Court to intervene and review this case.
The Tenth Circuit applied a “properly stated rule of
law”, consistent with its own long-standing
jurisprudence, and that of this Court, and came to the
appropriate conclusion based off the facts as alleged
by the Petitioner. Accordingly, the Petition for a Writ
of Certiorari should be denied.
III.

EVEN IF THE OBJECTIVELY
UNREASONABLE STANDARD WERE
APPLICABLE, DISMISSAL OF THIS CASE
WAS STILL THE APPROPRIATE
OUTCOME

Even if the objective unreasonableness standard
discussed in Kingsley applied to claims of deliberate
indifference to medical needs, the application of that
standard to the facts alleged in Petitioner’s Complaint
would warrant the exact same outcome, dismissal for
failure to state a claim. In particular, Petitioner has
failed to allege that the Respondents acted
purposefully, knowingly, or recklessly in bringing
about the alleged physical consequences to Pratt. See
Kingsley, 576 U.S. at 396. The facts, as alleged in the
Complaint, show that the medical providers
intentionally provided treatment to Pratt; they did

24
not intentionally deny him treatment or intentionally
refuse to transfer him to an outside medical facility.
The Complaint reflects, at all relevant times,
Armor’s providers believed Pratt experienced alcohol
withdrawal. Pet. App. 51a-53a, 55a-58a, ¶¶ 16-20, 26,
& 30. Once the medical providers recognized Pratt’s
alcohol withdrawal symptoms, they placed him on
Librium protocol and admitted him to the jail’s
medical unit. Id. at 55a-56a, ¶ 26. To place Pratt on
such a protocol required a purposeful and intentional
decision by the medical providers – as did the decision
to remove Pratt from the jail’s general population for
admission to the medical unit. Further, Petitioner’s
own allegations show that Pratt was assessed on
December 14, 2015, at 2:08 a.m., and the nurse
noticed Pratt’s symptoms were becoming more severe.
Id. at 52a-53a, ¶ 20. Pratt’s treatment protocol was
then changed from Librium to Valium to better treat
his needs. Id. at 55a-56a, ¶ 26. Petitioner’s allegations
reflect that the nurse recognized Pratt’s worsening
alcohol withdrawal symptoms and that medical
providers made the intentional decision to alter
Pratt’s alcohol withdrawal treatment accordingly.
There is no allegation Pratt did not receive Librium
or Valium for his condition. Petitioner’s disagreement
with Pratt’s admission to the jail’s medical unit,
placement on Librium protocol, and placement on
Valium protocol does not amount to a valid
constitutional claim, as it is nothing more than a
claim of mere negligence.
Petitioner’s allegations further reflect Dr. McElroy
assessed Pratt on multiple occasions beginning the
morning Pratt began the Valium protocol. Pet. App.
at 55a-56a, 59a, ¶¶ 25-26 & 32. During such
assessments, Dr. McElroy observed Pratt’s condition

25
and determined the course of treatment he believed
best based upon his professional judgment. Petitioner
does not allege Pratt’s symptoms were inconsistent
with alcohol withdrawal during Dr. McElroy’s
assessments or that Librium or Valium were
improper medications to give to Pratt. Further,
Petitioner does not allege Dr. McElroy deliberately or
intentionally determined Pratt should not be
transferred to an external medical facility. Instead,
Petitioner claims Dr. McElroy negligently failed to
transfer Pratt to a medical facility outside the jail for
treatment – a claim that does not pass constitutional
muster.
Further, Petitioner alleges that LPC Loehr
conducted a mental health assessment on Pratt on
December 15, 2015, at which time Pratt’s symptoms
remained consistent with alcohol withdrawal – a
diagnosis already made by the time of LPC Loehr’s
assessment and a diagnosis for which Pratt was
already receiving treatment. Pet. App. at 57a-58a, ¶
30. Based on Petitioner’s allegations against LPC
Loehr, a reasonable inference can be drawn that LPC
Loehr was aware of Pratt’s ongoing treatment, and
she encouraged Pratt to comply with existing
treatment recommendations. LPC Loehr’s monitoring
of Pratt’s condition by way of her assessment does not
show she acted purposefully, knowingly, or recklessly
in bringing about the alleged physical consequences
to Pratt but, rather, that she acted intentionally in
ensuring Pratt was receiving adequate treatment for
his alcohol withdrawal. Medical providers also
intentionally took Pratt’s blood pressure on December
12, 2015 and intentionally attempted to take Pratt’s
vital signs on December 14, 2015, but Pratt refused.
Id. at 52a, 54a, ¶¶ 18 & 23.

26
The Complaint alleges Pratt’s medical providers
decided not to send Pratt to the hospital or provide
additional care. Pet. App. 5a-8a, 53a-55a. However,
Petitioner fails to allege what different or additional
care, if any, Pratt would have received if he had gone
to a hospital. At the jail, according to Petitioner’s
Complaint, Pratt was under the care of nurses and
physicians. His condition was monitored, and he was
prescribed and administered medications. It stands to
reason that had Pratt gone to a hospital, he would
have been treated by nurses and physicians who
would have observed his condition and prescribed and
administered medications. Additionally, there is no
allegation that the jail had a lack of resources by way
of medical personnel or equipment. Where there is no
allegation that better or different care would have
been provided at the hospital, Petitioner’s claims are
reduced to a disagreement regarding the location of
the treatment. Whether a disagreement over the
efficacy of the treatment provided or the situs of the
treatment provided, Petitioner’s claims amount to a
disagreement with the medical treatment rendered to
Pratt or, at worst, mere negligence – neither of which
are actionable constitutional claims under the
Fourteenth Amendment, even under the objective
unreasonableness standard outlined for excessive
force claims in Kingsley. Accordingly, the Petition for
a Writ of Certiorari should be denied.

27
CONCLUSION
For the foregoing reasons, Respondents respectfully
request that the Petition for a Writ of Certiorari be
denied.
Respectfully submitted,
SEAN P. SNIDER*
AUSTIN J. YOUNG**
JOHNSON HANAN VOSLER
HAWTHORNE & SNIDER
9801 N. Broadway Ext.
Oklahoma City, OK 73114
(405) 232-6100

Counsel for Respondents
Armor Correctional Health
Services, Inc.; Curtis
McElroy, D.O.; Patricia
Deane, LPN; and Kathy
Loehr, LPC
*Counsel of Record
**Assisting on the Brief

